                      CLOSEOUT FOR CASE M99040024

On 4 April 1999, we received an allegation of misconduct in science fiom the
complainant.' The complainant alleged that the subject2 committed intellectual theft
when he resubmitted a proposal to N S F ~that contained ideas fiom their jointly submitted,
declined, NSF proposal.'

According to the complainant, he wrote the declined NSF proposal that was submitted
jointly with the subject and a third co-PI. Because the complainant's employment at the
institution was about to end, the subject had asked the complainant to resubmit the
proposal and assured him that if it were h d e d the subject would find a way to have the
complainant brought back to the institution. The complainant said he told the subject that
he did not want to resubmit the proposal with the subject. After he left the institution, the
complainant learned that the subject had resubmitted the proposal, and it had been
funded.

We determined that, because the subject was a co-author on the declined proposal and
because there were no restrictions on the subject's use of the material in the future, he did
nothing wrong when he used their intellectual property. We also determined that the
resubmitted proposal had been significantly revised. Given the complainant's position on
M e r work with the subject, it is not surprising that the subject did not attempt to
contact the complainant about the planned resubmission. There was no substance to the
allegation of intellectual theft.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                        Page 1 of 1                                M99-24
